HHS/OIG-Audit--"Office of Inspector General's Partnership Plan--Utah Division of Health Care Financing Reports on Medicaid Pharmacy Acquisition Costs of Brand Name and Generic Drugs, (A-06-99-00035&A-06-99-00036)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Office of Inspector General's Partnership Plan--Utah Division of Health
Care Financing Reports on Medicaid Pharmacy Acquisition Costs of Brand Name and
Generic Drugs," (A-06-99-00035 & A-06-99-00036)
May 4, 1999
Complete
Text of Report is available in PDF format (4.78 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
These two final reports provide results of review of Medicaid prescription drugs
pharmacy acquisition costs conducted by the Utah Division of Health Care Financing
(UHCF) as part of the OIG's partnership efforts with State Medicaid agencies to
expand oversight of the Medicaid program. The reports point out that Utah could
realize significant savings on brand name and generic drugs if, instead of reimbursing
drugs on average wholesale price less a certain percentage, the reimbursement for
the ingredient portion of Medicaid drugs was more consistent with what pharmacies
actually pay for such drugs. Based on their findings the UHCF concludes that the
State should undertake a through review of pharmacy reimbursement policy.